Audit Report




OIG-14-028
RECOVERY ACT: Audit of New Mexico Mortgage Finance
Authority’s Payment Under 1602 Program
March 10, 2014




Office of
Inspector General
Department of the Treasury
Contents


Audit Report.................................................................................................. 1

    Results in Brief ............................................................................................. 1

    Background ................................................................................................. 2

    Audit Results ............................................................................................... 5


Appendices

    Appendix     1:      Objectives, Scope, and Methodology .........................................9
    Appendix     2:      Grantee Terms and Conditions ............................................... 10
    Appendix     3:      New Mexico Mortgage Finance Authority Response .................. 15
    Appendix     4:      Management Response ......................................................... 16
    Appendix     5:      Major Contributors to This Report ........................................... 17
    Appendix     6:      Report Distribution ................................................................ 18


Abbreviations

    IRC                  Internal Revenue Code
    OFAS                 Office of the Fiscal Assistant Secretary
    OIG                  Office of Inspector General
    MFA                  New Mexico Mortgage Finance Authority
    QAP                  Qualified Allocation Plan




                         Audit of New Mexico Mortgage Finance Authority’s Payment                            Page i
                         Under 1602 Program (OIG-14-028)
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                      March 10, 2014

                      As part of our ongoing oversight of the Department of the
                      Treasury’s (Treasury) Payments to States for Low-Income Housing
                      Projects in Lieu of Low-Income Housing Credits for 2009 (1602
                      Program), authorized by Section 1602 of the American Recovery
                      and Reinvestment Act of 2009 (Recovery Act), 1 we are conducting
                      audits of awards made to selected state housing credit agencies.
                      The objective of these audits is to assess whether the agencies
                      awarded funds under Treasury’s 1602 Program complied with the
                      program’s requirements contained in the “Grantee Terms and
                      Conditions” (hereinafter terms and conditions). In this report, we
                      provided our assessment of New Mexico Mortgage Finance
                      Authority’s (MFA) compliance with the 1602 Program
                      requirements. Appendix 1 provides a more detailed description of
                      our audit objectives, scope, and methodology.

Results in Brief
                      We found that MFA complied with Treasury’s 1602 Program terms
                      and conditions which capture the eligibility and compliance
                      requirements set forth in both Section 42 of the Internal Revenue
                      Code (IRC) 2 and Section 1602 of the Recovery Act. That is, MFA
                      met the applicable requirements for receiving its $47,777,169
                      1602 Program award as well as requirements for subawarding
                      those funds to six eligible low-income housing projects. MFA also
                      established a process for monitoring the long-term viability of
                      projects and their compliance with 1602 Program requirements and
                      met Treasury reporting requirements also required by the terms and

1
  Pub. L. No. 111-5, 123 Stat. 362-364 (Feb. 17, 2009). Under section 1602 of the Recovery Act,
Treasury shall make a grant to the housing credit agency of each State in an amount equal to such
State’s low-income housing grant election amount.
2
 26 U.S.C.§42 “Low-Income Housing Credit,”
(http://www.treasury.gov/initiatives/Documents/LIH_application-package.pdf

                      Audit of New Mexico Mortgage Finance Authority’s Payment                 Page 1
                      Under 1602 Program (OIG-14-028)
                      conditions. However, we caution that MFA must continue to
                      ensure compliance with the terms and conditions over the
                      remaining 15-year compliance period.

                      We provided our report to MFA for the purpose of incorporating
                      management’s views. In its response, MFA expressed commitment
                      to strong compliance throughout the remaining 15-year compliance
                      period. MFA’s response is provided in appendix 3. After
                      incorporating MFA’s response into this report, we provided it to
                      Treasury management for comment. Treasury management also
                      concurred with our audit results; its response is provided in
                      appendix 4.

Background
                      The low-income housing tax credit program codified in Section 42
                      of the IRC was authorized by the Tax Reform Act of 1986. 3 The
                      tax credit is an incentive for individuals and corporations to invest
                      in the construction or rehabilitation of low income housing. The tax
                      credit provides the investor a dollar-for-dollar reduction in personal
                      or corporate federal income tax liability for a 10-year period for
                      projects meeting program requirements.

                      The Recovery Act was signed into law to provide relief to the
                      ongoing economic crisis. Part of that relief, provided in Section
                      1602 of the Recovery Act, consisted of grants awarded to states 4
                      for low-income housing projects in lieu of low-income housing
                      credit allocations. The purpose of Section 1602 was to fill the gap
                      left by the reduced demand for low-income housing tax credits that
                      would enable low-income housing projects to continue or begin in
                      cases where developers could not obtain private investment, as
                      well as, increase the availability of affordable housing. The
                      Secretary of the Treasury is responsible for carrying out the
                      requirements of Section 1602. The Office of the Fiscal Assistant
                      Secretary (OFAS) was delegated the authority to administer
                      Treasury’s 1602 Program.

3
  Pub. L. No. 99-514, Stat. 2085 (Oct. 22, 1986)
4
 According to Treasury’s “Grantee Terms and Conditions. “… a. The grantee is the housing credit
agency for one of the 50 States, the District of Columbia, the Commonwealth of Puerto Rico, the Virgin
Islands, American Samoa, Guam, or the Northern Mariana Islands which files Form 8610, Annual Low-
Income Housing Credit Agencies Report with the Internal Revenue Service.”

                      Audit of New Mexico Mortgage Finance Authority’s Payment                  Page 2
                      Under 1602 Program (OIG-14-028)
                       Eligibility Under the 1602 Program

                       Under the Recovery Act, state housing credit agencies were
                       allowed to exchange a portion of their low-income housing credits
                       for Section1602 funds. The maximum funds available to a state
                       could not exceed its “Low-income Housing Grant Election
                       Amount” 5 as determined under Section 1602. In turn, state
                       housing credit agencies would disburse funds to eligible
                       subawardees to help finance either the construction or the
                       acquisition and rehabilitation of qualified low-income housing
                       projects. Section 1602 also provided that subawarded projects be
                       subject to the same eligibility and compliance requirements as the
                       low-income housing credits found in Section 42 of the IRC. In
                       addition to following the IRC Section 42 eligibility and compliance
                       requirements, Section 1602 required that state housing credit
                       agencies:

                           (1) establish a process to ensure that applicants who were
                               allocated low-income housing credits demonstrate “good
                               faith efforts” to obtain investment commitments for credits
                               elsewhere;

                           (2) perform asset management functions to ensure subaward
                               compliance with Section 42 of the IRC and the long-term
                               viability of projects; 6 and

                           (3) recapture funds in the event of subawardees’ non-
                               compliance payable to Treasury.

                       As part of its overall administration of Treasury’s 1602 Program,
                       OFAS developed the terms and conditions of award to identify the
                       eligibility and compliance requirements set forth in both Section 42
                       of the IRC and Section 1602 of the Recovery Act. State housing


5
  “Low-income Housing Grant Election Amount” may not exceed 85 percent of the sum of (1) 10 times
(a) the unused State housing credit ceiling (if any) for calendar year 2008 and (b) the amount of State
housing credit ceiling returned in 2009, plus (2) 10 times 40 percent of (a) the greater of $2.30
multiplied by the State population or $2,655,000 and (b) unused housing credit carryover allocated to
the State in the 2009 National Pool.
6
  Low-income housing projects must be financially feasible and remain viable throughout the 15 year
compliance period required by Section 42 of the IRC.

                       Audit of New Mexico Mortgage Finance Authority’s Payment                   Page 3
                       Under 1602 Program (OIG-14-028)
                      credit agencies and subawards funded by them are subject to these
                      terms and conditions for the 15-year compliance period. Among
                      the terms and conditions, state housing credit agencies are required
                      to provide financial status and project performance reports and
                      other applicable reports for ensuring compliance with the terms and
                      conditions of their 1602 Program awards. In its post sub-award
                      reporting guidance, OFAS required that state housing credit
                      agencies submit annual reports that demonstrate (1) the amount of
                      Section 1602 funds subawarded to a project was equal to or less
                      than 85 percent of the project’s eligible basis; and (2) funded
                      projects remain qualified projects throughout the 15-year
                      compliance period. Appendix 2 provides the detail contained in
                      OFAS’ terms and conditions for award.

                      Since awards under the 1602 Program are not grants but an
                      exchange of low-income housing credits falling under the
                      requirements of Section 42 of the IRC, they are not covered by the
                      Single Audit Act 7 or the Office of Management and Budget Circular
                      No. A-133. 8 Therefore, unless the state auditor specifically audits
                      these awards, the awards to the respective states and their
                      subawardees will not receive any audit coverage. At the time of
                      our audit, MFA’s 1602 Program had not received any audit
                      coverage by the state auditor.

                      New Mexico Mortgage Finance Authority

                                                                    The MFA, a quasi-public
                                                                    entity, provides
                                                                    financing for housing
                                                                    and other related
                                                                    services to low and
                                                                    moderate income
                                                                    residents of New
                                                                    Mexico. MFA is also
                               The Artisan at Sawmill Village       responsible for
                               (OIG Photograph, June 2012)          administering the state’s
                      low-income housing tax credit program and allocates credits based
                      on the selection criteria set forth in its Qualified Allocation Plan

7
 Pub .L. 98-502, amended by Pub. L. 104-145, Single Audit Act Amendment of 1996
8
 OMB Circular No. A-133, Audits of States, Local Governments and Non-Profit Organizations (June
2007)

                      Audit of New Mexico Mortgage Finance Authority’s Payment               Page 4
                      Under 1602 Program (OIG-14-028)
                (QAP). In 2009, MFA exchanged a portion of its low-income
                housing credits for $47,777,169 under the 1602 Program which
                helped restart six projects that were stalled due to fallout from the
                low-income housing tax credit equity market. As a result, a total of
                372 housing units were created, of which 367 units were set aside
                as low-income for qualifying residents throughout the state. All
                projects were completed and placed in-service between October
                2010 and November 2011.

Audit Results
                We found that MFA complied with the terms and conditions of its
                1602 Program award. Specifically, MFA met the requirements for
                receiving its 1602 Program award as well as requirements for
                subawarding those funds to low-income housing projects. MFA
                also established a process for monitoring the long-term viability of
                projects and their compliance with 1602 Program requirements,
                and lastly met reporting requirements also required by OFAS’ terms
                and conditions. Based on our review of MFA’s administration and
                oversight activities, we concluded that the projects funded with
                1602 Program funds met the subaward requirements, also
                contained in the 1602 Program terms and conditions.

                Awarding

                MFA requested and was awarded $47,777,169 of 1602 Program
                funds, the amount equal to MFA’s low-income housing election
                amount requested in its application. In turn, MFA subawarded its
                1602 Program funds to six eligible low-income housing projects in
                exchange for tax credits. As required by the 1602 Program terms
                and conditions, MFA subawarded funds to low-income housing
                projects which (1) qualified under Section 42 of the IRC;
                (2) demonstrated “good faith efforts” to obtain investments
                elsewhere, and (3) did not exceed the amounts necessary to make
                the projects financially feasible and viable throughout the 15-year
                compliance period.

                Through its tax credit allocation and 1602 Program tax credit
                exchange processes, MFA identified six qualified projects which
                were allocated tax credits in 2007 and 2008 but were stalled due
                to conditions in the low-income housing tax credit equity market. In

                Audit of New Mexico Mortgage Finance Authority’s Payment        Page 5
                Under 1602 Program (OIG-14-028)
selecting these projects, MFA used its 2007, 2008, and 2009
QAPs, which set forth the selection criteria for low-income housing
projects, as its official guidance for tax credit allocations and 1602
Program subawards. Based on our review, we noted that MFA’s
guidance complied with the 1602 Program terms and conditions
which point to the statutory requirement for QAPs in Section 42 of
the IRC. We also determined that MFA properly allocated low-
income credits to Section 42 of the IRC qualified low-income
housing projects and was compliant with the 1602 Program terms
and conditions for subawarding funds to those qualified low-
income housing projects.

Furthermore, we found that MFA ensured that all six subawardees
made “good faith efforts” in their attempts to obtain other
investment commitments for tax credits in lieu of the 1602
Program subawards, and that subawarded amounts did not exceed
the amounts necessary to ensure the projects’ financial feasibility
and future viability.

Compliance and Asset Management

As required in its terms and conditions and Section 1602 of the
Recovery Act, MFA established compliance and asset management
oversight functions to ensure that subawards comply with Section
42 of the IRC and that low-income housing projects funded by
subawards remain viable during the 15-year compliance period.
MFA also imposed recapture requirements in its subaward
agreements in the event of noncompliance also required by OFAS’
terms and conditions.

Section 1602 of the Recovery Act required that state housing
credit agencies impose conditions and/or restrictions, including
recapture requirements, on subawardees to ensure low-income
housing projects remain qualified during the 15-year compliance
period. OFAS stipulated in its terms and conditions that recapture
requirements be included in state credit housing agencies’ written
subaward agreements. Furthermore, state housing credit agencies
were required by OFAS to have procedures in place for monitoring
1602 Program subawardees to identify and correct issues of




Audit of New Mexico Mortgage Finance Authority’s Payment         Page 6
Under 1602 Program (OIG-14-028)
                      noncompliance during the compliance period. 9 In the event of
                      noncompliance, state housing credit agencies must impose
                      consequences such as possible state program debarment and the
                      recapture of 1602 Program funds, payable to Treasury.

                      MFA structured its 1602 Program subawards as revocable grants
                      or loans using existing financing vehicles. The grants and loans are
                      subject to recapture in the event a low-income building does not
                      remain qualified during the 15-year compliance period. At the time
                      of our audit only one of six projects had completed its first year of
                      the 15-year compliance period. However, MFA began its
                      compliance monitoring of all 1602 Program projects which was
                      comprised of on-site inspections of project buildings and units and
                      reviews of project tenant files for Section 42 of the IRC
                      compliance.

                      MFA’s policy is to perform its asset management function on each
                      1602 Program project quarterly, for the first 3 years, then annually
                      for the remaining years within the 15-year compliance period. The
                      asset management function includes quarterly reviews of each
                      project’s audited financial statements and financial feasibility
                      analysis to ensure its long-term viability.

                      MFA’s continuous compliance monitoring and asset management,
                      for the remaining years within the projects’ 15-year compliance
                      period, will ensure 1602 projects maintain qualified low-income
                      buildings.

                      Reporting

                      OFAS requires that state housing credit agencies submit financial
                      status and project performance reports for each low-income
                      housing project on a quarterly basis during the development stage
                      as well as other reports deemed necessary to ensure compliance
                      with provisions of Section 1602. In its post sub-award reporting
                      guidance, OFAS also requires that state housing credit agencies
                      provide two additional certification reports. The first report will
                      certify each project’s placed in-service date and whether 1602


9
  Treasury, “Section 1602 - Payments to States for Low-Income Housing Projects in Lieu of Low-
Income Housing Credits for 2009 Recapture Guidance”

                      Audit of New Mexico Mortgage Finance Authority’s Payment                   Page 7
                      Under 1602 Program (OIG-14-028)
Program funds used were equal to or less than 85 percent of the
project’s eligible basis. The state housing credit agency must
submit a second report on each project’s annual compliance
throughout the 15-year compliance period once the project is
placed in service.

At the time of our review, we found that MFA complied with
OFAS’ reporting requirements. That is, MFA submitted quarterly
project performance reports during each project’s developmental
stage and annual reports after the project was placed in service.



                                ******


We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Deputy Assistant
Inspector General for Financial Management and Information
Technology Audits, at (202) 927-5784. Major contributors to this
report are provided in appendix 5.


/s/

Marla A. Freedman
Assistant Inspector General for Audit




Audit of New Mexico Mortgage Finance Authority’s Payment       Page 8
Under 1602 Program (OIG-14-028)
Appendix 1
Objectives, Scope, and Methodology




In June 2012, we initiated our audit of the New Mexico Mortgage
Finance Authority (MFA) as part of our audits of state housing
credit agencies funded under Treasury’s Grants to States for Low-
Income Housing Projects in Lieu of Low-Income Housing Credit
Allocations for 2009 (1602 Program). The objective of these audits
is to assess whether state housing credit agencies awarded funds
under Treasury’s 1602 Program complied with the program’s
requirements contained in the “Grantee Terms and Conditions”
(hereinafter terms and conditions). The term and conditions outline
the program requirements for award eligibility, compliance
monitoring and reporting. To meet our objective we assessed
whether MFA properly received and subawarded 1602 Program
funds, implemented compliance and asset management processes,
and met Treasury’s reporting requirements.

We statistical selected MFA from the universe of 55 states and
territories receiving 1602 Program funds. In the case of MFA, we
reviewed the entire universe of six projects and related cash
disbursements representing more than 50 percent of 1602 Program
funds. In performing our work, we visited MFA in Albuquerque,
New Mexico; interviewed key personnel of MFA; reviewed
documents used to support New Mexico’s low-income housing
credit allocation, six approved low-income housing projects, cash
disbursements to projects, and project’s existence; performed site
visits to four properties located in Albuquerque and Santa Fe, New
Mexico; and assessed MFA’s compliance with Treasury’s terms
and conditions. We performed our fieldwork between June 2012
and July 2013.

We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform an audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




Audit of New Mexico Mortgage Finance Authority’s Payment      Page 9
Under 1602 Program (OIG-14-028)
                   Appendix 2
                   Grantee Terms and Conditions




    Grants to States for Low-Income Housing Projects in Lieu of Low-Income Housing
                                   Credits for 2009

                          GRANTEE TERMS AND CONDITIONS

1. Authority
a. Section 1602 of the American Recovery and Reinvestment Tax Act of 2009 (Act) authorizes
the United States Department of the Treasury (Treasury) to issue grants to State housing credit
agencies in lieu of low-income housing credits.

b. The grantee has authority to receive Section 1602 grants.

2. Grantee Eligibility
a. The grantee is the housing credit agency for one of the 50 States, the District of Columbia, the
Commonwealth of Puerto Rico, the Virgin Islands, American Samoa, Guam, or the Northern
Mariana Islands which files Form 8610, Annual Low-Income Housing Credit Agencies Report
with the Internal Revenue Service.

b. The grantee shall be the sole recipient of the Section 1602 funds in the State and must
coordinate with other housing credit agencies within the State (including any constitutional home
rule cities) to determine how much of their 2009 credit ceiling the other agencies would elect to
take in the form of a grant election amount and will provide to those agencies their proportionate
share.

c. The grantee shall enter into written agreement with any other participating housing credit
agencies within the State, binding the participating agency to comply with the terms and
conditions applicable to the grantee or designated state agency in the sections 3 through 10 of
these terms and conditions.

d. The grantee is the party responsible to Treasury for all grant matters.

3. Eligible Projects
a. The grantee shall only select projects for subawards which are qualified low-income buildings
under Section 42 of the Internal Revenue Code (the Code).

b. The grantee must ensure that the subaward is consistent with the requirement of section
42(m)(2) of the Code that the subaward made for a project [building(s)] does not exceed the
amount necessary to ensure the financial feasibility of the project and its viability as a project
throughout the credit period.

4. Use of Grant Funds
a. The grantee is receiving an initial grant election amount. The grantee may apply for additional
grant funds through 2010. If the Treasury Department approves the request, the Treasury
Department will amend the award to increase the grant amount.

                   Audit of New Mexico Mortgage Finance Authority’s Payment                   Page 10
                   Under 1602 Program (OIG-14-028)
                   Appendix 2
                   Grantee Terms and Conditions




b. The grantee shall use all grant amounts to make subawards, or for transfer to other agencies to
make subawards. The subawards shall be in the form of cash assistance and are not required to
be repaid unless there is a recapture event with respect to the qualified low-income building. The
grantee shall not use grant election amounts for any other purpose, including administrative
costs. The grantee may collect reasonable fees from a subawardee to cover expenses associated
with performance of its duties under Section 1602(c)(3) of the Act, Compliance and Asset
Management. Reasonable fees are amounts customarily charged for the same or similar services
and in no event may exceed costs.

c. The grantee may disburse grant funds to subawardees in 2009 and 2010. The grantee may
disburse grant funds to subawardees in 2011 provided the subaward has been made to the
subawardee on or before December 31, 2010 and the subawardee has, by the close of 2010, paid
or incurred at least 30 percent of the subawardee’s total adjusted basis in land and depreciable
property that is reasonably expected to be part of the low-income housing project for which the
disbursements are made.

d. The subawards shall finance the construction or acquisition and rehabilitation of qualified low-
income buildings in accordance with Section 1602(c) of the Act.

e. The grantee shall make subawards in the same manner and shall be subject to the same
limitations as an allocation of housing credit dollar amount allocated under Section 42(m) of the
Code, except for the additional determinations required in subsection g of this section.

f. Prior to making any subaward, the grantee shall establish a written process for making a
determination that applicants for subawards have demonstrated a good faith effort to obtain
investment commitments for tax credits in lieu of a subaward.

g. Prior to making any subaward, the grantee shall make a determination that the applicant for
the subaward has demonstrated a good faith effort to obtain investment commitments for tax
credits in lieu of the subaward.

5. Written Agreements and Disbursements to Subawardees
a. The grantee shall execute a legally binding written agreement with the entity receiving a
subaward. The grantee and the subawardee must execute the written agreement before any
Section 1602 funds are disbursed to the subawardee.

b. The written agreement must set forth (explicitly, or incorporated by reference) all Section
1602 program requirements, including the requirements of Section 42 of the Code, applicable to
the subaward.

c. The written agreement shall impose conditions or restrictions, including a requirement
providing for recapture, so as to assure that the qualified low-income building remains a
qualified low-income building during the 15-year compliance period. The written agreement may
include the extended low-income housing commitment under Section 42(h)(6)(B) of the Code.

                   Audit of New Mexico Mortgage Finance Authority’s Payment                Page 11
                   Under 1602 Program (OIG-14-028)
                   Appendix 2
                   Grantee Terms and Conditions




d. The written agreement shall require the subawardee to provide sufficient information to the
grantee to report on the use of grant funds as required by section 8 of these terms and conditions.

6. Asset Management
a. The grantee shall perform asset management functions so as to ensure compliance with
Section 42 of the Code and the regulations thereunder (including Title 26 Code of Federal
Regulations section 1.42.9), and the long-term viability of the buildings funded by a subaward
under the Act in accordance with Section 1602(c)(3) of the Act.

7. Compliance with the 2009 State Housing Credit Ceiling
a. The grantee shall track (1) the credit equivalent of all grant election amounts to ensure that the
2009 State Housing Credit Ceiling is appropriately reduced as required by section 42(i)(9)(A) of
the Code and (2) total grant election amounts to ensure that these amounts do not exceed the
amount authorized by section 1602(b).

b. The grantee shall track the total of credits allocated under Section 42(h)(1) of the Code.

c. The grantee shall ensure that the credit equivalent of all elected grant amounts through 2010,
plus the credits allocated under Section 42(h)(1) of the Code during 2009, do not exceed the
State housing credit ceiling for 2009.

8. Reporting
a. The grantee shall provide periodic reports as required by Treasury. A financial status report
and a project performance report is required on a quarterly basis, due 10 working days after the
end of the quarter. Quarters end on March 31, June 30, September 30, and December 31.

b. The performance report has the following elements on each project receiving a subaward
during the quarter:
    • Name of recipient entity
    • Name of project
    • Brief description of project
    • Location of project: city/county, State, zip code
    • Number of construction jobs created
    • Number of construction jobs retained
    • Number of non-construction jobs created
    • Number of non-construction jobs retained
    • Number of total housing units newly constructed
    • Number of total housing units rehabilitated
    • Number of low-income housing units newly constructed
    • Number of low-income housing units rehabilitated

c. The grantee shall submit any other reports that Treasury deems necessary to comply with
Section 1602 of the Act and American Recovery and Reinvestment Act guidance.

                   Audit of New Mexico Mortgage Finance Authority’s Payment                     Page 12
                   Under 1602 Program (OIG-14-028)
                   Appendix 2
                   Grantee Terms and Conditions




9. Recapture
a. The grantee shall include in any subaward a requirement providing for recapture to assure that
the building remains a qualified low-income building during the 15-year compliance period.

b. The grantee shall notify subawardees that any amount subject to recapture becomes a debt
owed to the United States payable to the General Fund of the Treasury and enforceable by all
available means against any assets of the recipient entity.

10. Financial Management
a. The grantee must expend and account for grant funds in accordance with State laws and
procedures for expending and accounting for its own funds. Fiscal control and accounting
procedures of the designated State housing credit agency must be sufficient to permit preparation
of required reports and permit the tracing of funds to a level of expenditures adequate to establish
that such funds have not been used in violation of the restrictions and prohibitions of applicable
statutes. Effective control and accountability must be maintained for all grant funds.

b. The grantee shall open a new account (Grant Account) with a financial institution for the
purpose of receiving grant election amounts, for making distributions of grant election amounts
to other agencies within the State, and for making subawards.

c. The grantee must maintain program, financial, and accounting records sufficient to
demonstrate that grant funds were used in accordance with the Section 1602 program and these
terms and conditions. The Treasury as the awarding office, the cognizant Treasury inspector
general, and the Comptroller General of the United States, or any of their authorized
representatives, shall have the right of access to facilities and to any pertinent books, documents,
papers, or other records (electronic and otherwise) of grantees, which are pertinent to the grant,
in order to make audits, examinations, excerpts, and transcripts.

d. The grantee shall minimize the time between the receipt of grant funds and the disbursement
of those funds to subawardees. Federal funds cannot be drawn by the grantee from the U.S.
Treasury in advance of need. The grantee shall not place in escrow or advance lump sums to
project owners. Once funds are drawn from the grantee’s U.S. Treasury account, they must be
expended as a subaward by the grantee within three days, or if grant funds are transferred by the
grantee to another agency, as a subaward by that agency within three days following the date of
transfer by the grantee.

e. The grantee shall promptly return to its Grant Account any subawards returned to the
designated State housing credit agency from subawardees and shall expend returned amounts as
subawards before additional grant amounts are drawn from the Treasury.

11. Disallowance, Suspension, and Termination
a. If the grantee materially fails to comply with any term of the award, whether stated in a
Federal statute or regulation, the terms and conditions herein, in a State plan or application, a


                   Audit of New Mexico Mortgage Finance Authority’s Payment                   Page 13
                   Under 1602 Program (OIG-14-028)
                   Appendix 2
                   Grantee Terms and Conditions


notice of award, or elsewhere, Treasury may take one or more of the following actions, as
appropriate in the circumstances:
    • Temporarily halt cash payments pending correction of the deficiency by the grantee
    • Disallow all or part of the cost of the activity or action not in compliance
    • Wholly or partly suspend or terminate the current award
    • Withhold further awards for the program
    • Take other remedies that may be legally available

In taking an enforcement action, Treasury will provide the grantee the opportunity for a hearing,
appeal, or other administrative proceeding to which the grantee is entitled under any statute or
regulation applicable to the action involved.

b. The grantee must immediately report any indication of fraud, waste, abuse, or potentially
criminal activity pertaining to grant funds to Treasury and the cognizant Treasury inspector
general.

12. Return of Unused Grant Funds
a. The grantee shall return to the Treasury by January 1, 2011 any grant election amounts not
used to make subawards by December 31, 2010. This requirement does not prevent the State
housing credit agency from continuing to disburse funds to subawardees after December 31,
2010 provided:
        (1) A subaward has been made to the subawardee on or before December 31, 2010;
        (2) The subawardee has, by the close of 2010, paid or incurred at least 30 percent of the
        subawardee’s total adjusted basis in land and depreciable property that is reasonably
        expected to be part of the low-income housing project; and
        (3) Any funds not disbursed to the subawardee by December 31, 2011 must be returned
        to the Treasury by January 1, 2012.

Signature

Under penalties of perjury, I declare that I have examined the terms and conditions in this
application and that the designated State housing credit agency agrees to and will ensure that
these terms and conditions will be followed. I declare that I am an authorized official of the
designated State housing credit agency and am authorized to bind the State housing credit agency
to these Terms and Conditions.

 Name                                               Title
 Phone                                              Email
 Signature                                          Date signed




                   Audit of New Mexico Mortgage Finance Authority’s Payment                 Page 14
                   Under 1602 Program (OIG-14-028)
Appendix 3
New Mexico Mortgage Finance Authority Response




Audit of New Mexico Mortgage Finance Authority’s Payment   Page 15
Under 1602 Program (OIG-14-028)
Appendix 4
Management Response




Audit of New Mexico Mortgage Finance Authority’s Payment   Page 16
Under 1602 Program (OIG-14-028)
Appendix 5
Major Contributors To This Report




Donna Joseph, Deputy Assistant Inspector General for Financial
    Management and Information Technology Audits
Erica Wardley, Audit Manager
Gerald Kelly, Auditor-In-Charge
Nicholas Slonka, Auditor
Paul Harris, Program Analyst
Jeff Dye, Referencer




Audit of New Mexico Mortgage Finance Authority’s Payment   Page 17
Under 1602 Program (OIG-14-028)
Appendix 6
Report Distribution




Department of the Treasury

   Assistant Secretary for Management of the Treasury,
    Chief Financial Officer and Chief Performance Officer
   Fiscal Assistant Secretary
   Deputy Assistant Secretary, Fiscal Operations and Policy
   Office of Strategic Planning and Performance Management
   Office of the Deputy Chief Financial Officer, Risk and Control
      Group
   Program Manager, Office of Fiscal Assistant Secretary

Office of Management and Budget

   OIG Budget Examiner

New Mexico Mortgage Finance Authority

   Executive Director




Audit of New Mexico Mortgage Finance Authority’s Payment      Page 18
Under 1602 Program (OIG-14-028)
THIS PAGE INTENTIONALLY LEFT BLANK
